Agreement for U.S. Bank National Association Visa® Personal Line of Credit Accounts

This credit card program is issued and administered by U.S. Bank National Association. This information is accurate as of Ma rc h 3 1 , 2 0 2 1 .
PLEASE NOTE that this information is provided for general information purposes only and is not specific to your Account. See the Agreement
that was provided for your Account and Card for more detailed information, including contact information.
PRICING INFORMATION: Actual pricing will vary from one Cardmember to another
(APR = Annual Percentage Rate)
(DPR = Daily Periodic Rate)

Annual Percentage Rates for Purchases

Prime + 7.00%
This APR will vary with the Market based on the
Prime Rate.
(APR) 10.25%

(DPR) 0.028082%

Annual Percentage Rates for Balance Transfers

Prime + 7.00 %
This APR will vary with the Market based on the (APR) 10.25%
Prime Rate.
(DPR) 0.028082%

Annual Percentage Rates for Cash Advances

Prime + 7.00%
This APR will vary with the Market based on the (APR) 10.25%
Prime Rate.
(DPR) 0.028082%
Penalty APR and When It Applies
Paying Interest
Minimum Interest Charge

For Credit Card Tips from the
Consumer Financial Protection Bureau
Set Up and Maintenance Fees

• Annual Fee

Transaction Fees

There is no Penalty Rate for your Account.
Your due date is 24-30 days after the close of each billing cycle.
There is no interest-free period.
If you are charged interest, then the Minimum Interest Charge
will be NONE.
To learn more about factors to consider when ap plying f or o r
using a credit card, visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore.
NOTICE: Some of these set-up and maintenance f ees will b e
assessed before you begin using your Card and based on your
Credit Limit, your initial available credit will be less.
You may still reject this Account, provided that you have not yet
used it or paid a fee after receiving a billing statement. If you do
reject the Account, you are not responsible f or any f ees or
charges.
NONE

NONE
NONE
NONE
Either $20 or 4% of the Advance amount, whichever is greater
(maximum fee (No Maximum)).
• Cash Advance Overdraft Protection Fee NONE
• Cash Advance ATM Fee
Either $15 or 4% of the Advance amount, whichever is greater
(maximum fee (No Maximum)).
• Foreign Transaction Fee
Up to 3% of each foreign transaction amount.
•
•
•
•

Balance Transf er Advance Fee
Convenience Check Advance Fee
Financial Institution Cash Advance Fee
Cash Equivalent Advance Fee

Account Fees

• Late Fee
• Return Payment Fee

Up to $40
Up to $35

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See
the Agreement for more details.
U.S. BANK NATIONAL ASSOCIATION
P. O. Box 6352
Fargo, ND 58125
Account Agreement
This is an agreement and disclosure statement (“Agreement”) between you and U.S
Bank National Association containing the terms that will apply to your Account
(“Account”) effective March 31, 2021. In this Agreement, “you”, “your” and
“Accountholder” means each individual accepting a solicitation or applying for the
Account or otherwise agreeing to be responsible for the Account. “We”, “us”, “our”, a n d
“the Issuer” means U.S. Bank National Association, the issuer of the Card and your
Account creditor. Please read this Agreement carefully and keep it in a safe place to
make the best use of the Account and credit cards we may issue with this Account
(“Card”). The Agreement becomes effective as soon as you or someone authorized b y
you uses or activates the Card or Account. Even if the Card or Account has not been
used or activated, the Agreement becomes effective unless you contact us within 30
days after you receive the Card by calling the number on the back of the Card to cance l
your Account. This web Agreement does not replace the Agreement that is provided with
the Account and Card.
This Agreement contains an arbitration provision (including a class action
arbitration waiver). It is important that you read the entire Arbitration Provision
section carefully.
ACCOUNT FEATURES AND YOUR USE OF THE ACCOUNT
1. Personal Use: You may use the Account only for personal, family or household
purposes. Federal or state consumer protection laws may not apply if you use the
Account for other than personal, family or household purposes.
2. Expanded Account Access: Any card or PIN issued to or selected by you under th i s
Agreement will access multiple checking, savings, line of credit and credit card accounts
in your name at U.S. Bank or any of its bank affiliates; and any Account opened under
this Agreement may be accessed by any card(s) or PIN(s) that you have selected or that
have been issued to you or may in the future be selected by you or issued to you b y us
or our bank affiliates. “Expanded Account Access” means use of a card or account
number and PIN to conduct a transaction or obtain information at ATMs or via telephone,
personal computer banking, or any other availa ble method. Expanded Account A ccess
may be available for up to 5 checking, 5 savings, and 5 line of credit or credit card
accounts, and at other ATMs and with other available methods of access, other
limitations may apply.
3. Purchases: You may use the Account to buy, lease or otherwise obtain goods or
services from participating merchants (including transactions you initiate by mail,
telephone or over the Internet), or take advantage of special promotional Balance
Transfer offers that post as Purchase transactions (“Purchases”). We will, in connectio n
with any promotional offer we make from time to time, provide information on your C a r d
carrier or in additional materials (the “Offer Materials”) that explain whether those
transactions will post and be treated as a Purchase. Even if you have not signed a sale s
draft or the merchant has not supplied you with a written receipt or other proof of sale,
you are responsible for all Purchases made through your Account, except as exp r essl y
limited by applicable law (see “Your Billing Rights” section below for more details).
4. Advances: “Advances” are transactions other than Purchases that allow you d i r ect
access to funds available through your Account. Advances may include Account
transactions such as cash advances you obtain directly from us, automated teller
machines (“ATMs”) or other participating financial institutions (“Cash Advances” ) . A TM
and financial institution Advances include phone (automated phone system and 24 Hour
customer service assisted) and Internet transfers. Advances also include some Balance
Transfers, Convenience Checks, FastCash, Overdraft Protection Advances and Cash
Equivalent Advances. “Cash Equivale nt Advances” inclu de transactions to a cqu i re o r
initiate wire transfers, travelers checks, cashier’s checks, money orders, foreign cash
transactions, casino gaming and betting transactions and lottery tickets. Monthly
Account statements we issue may refer to Advances as an Advance, Cash, Cash
Advances, or by the product or device you used to obtain an Advance. Refer to the
Account Fees section for details on Advance Transaction Fees.

5. Advance Limits: Only a portion of the Credit Limit (defined below) is available for
Advances and that portion may vary from time to time. Although you may have credit
available under your Account, we may be unable to authorize an Advance. You may
contact Cardmember Service to learn the portion of your Credit Limit which is ava i l ab le
for Advances.
6. Checks Issued on the Account: We will supply Access Checks and Convenience
Checks for use by the person(s) or drawer named on those checks (collectively
“Checks”). These Checks are drafts that look like other checks, but are drawn on cre d i t
available in the Account. Checks must be written in U.S. Dollars. We will honor a
properly signed Check provided your Account has available credit to cover the amount of
the Check. Access Checks are not subject to Advance fees. From time to time, we may
supply you with Convenience Checks. We will, in connection with any Convenience
Check we provide, include Offer Materials that will explain whether the Convenience
Check will post and be treated as an Advance or as a Balance Transfer. We m a y a l so
return a Check unpaid if:
(a) the credit available under your Credit Limit is less than the Check amount;
(b) the Account is in Default; or
(c) the Check is improperly endorsed or otherwise fails to conform to our regularly
accepted standards for check payment.
Checks may not be used to pay your Account or any obligation you owe us or our
affiliates.
7. Paying and Stopping Payment on Checks: You must write to us or call to request that
payment be stopped on a Check. You must call us promptly with an oral stop p aym e nt
request and then provide us with a written confirmation of the stop payment request
within 14 calendar days. Any written stop payment request we receive will remain in
effect for 6 months, unless you renew the request in writing before the end of that ti m e .
We may pay Checks more than 6 months old. There may be circumstances under which
a Check must be paid, even if we have received a stop payment request from you. We
will not be liable to you if we do not honor your stop payment request under those
circumstances. If it is determined that a Check should have been paid, but was not, we
will not be liable for any consequential, punitive or incidental damages if we acted in
good faith. Our only obligation under those circumstances will be to pay the desig na ted
payee the amount of the Check and cancel any charges assessed against your Accou nt
as a result of any wrongful failure to honor the Check.
8. Balance Transfers: We may permit you to transfer balances and obligations th at yo u
owe other companies or financial institutions to your Account, subject to the terms and
conditions disclosed in the Offer Materials (“Balance Transfers”). Balance Transfers w i l
post to your Account and be separately reflected on monthly Account statements as a
Balance Transfer, or, depending upon the offer, may post to the Account and be treate d
as a Purchase or an Advance. We will, in connection with any Balance Transfer offer
we make, provide you with materials that explain how the Balance Transfer will p ost to
your Account and be reflected on monthly Account statements. You may not request
Balance Transfers on existing obligations you owe us or our affiliates. If you request a
Balance Transfer that would cause your Account to exceed its Credit Limit, we may, at
our option, (a) post the entire Balance Transfer requested to your Account; (b) post on l y
a portion of the Balance Transfer requested to your Account up to the amount o f cr e d it
available under the Credit Limit; or (c) refuse to process the entire amount of the Balance
Transfer requested.
9. U.S. Bank Overdraft Protection: This section is part of the Agreement only if you have
specifically requested and have obtained an Overdraft Protection Plan by linking the
Account with a designated U.S. Bank personal checking account ("checking acco u nt" ) .
An "Overdraft Protection Advance" is an advance of funds to your designated ch ecki n g
account from this Account that will help cover overdrafts on your checking account. An y
Overdraft Protection Advance will post and be charged interest as an Advance drawn on
the Account. Please refer to the U.S. Bank Deposit Account Agreement (entitled, "Y o ur
Deposit Account Agreement") for full Overdraft Protection Plan terms and the Consume r
Pricing Information Brochure for fees that apply for Overdraft Protection Advances. W e

may cancel Overdraft Protection privileges under the Account, even if the Account
remains open for other purposes.
INTEREST CHARGES AND ACCOUNT FEES
10. Account INTEREST CHARGES: INTEREST CHARGES reflect the cost of credit.
Your total INTEREST CHARGE for any billing cycle will equal the amount of any (a)
periodic rate INTEREST CHARGES (sometimes referred to as “interest” in this
Agreement and on monthly Account statements); (b) Advance Transaction Fees; and (c)
any other transaction fees that are considered INTEREST CHARGES.
11. Interest Rate: In this Agreement, we have abbreviated the terms “daily periodic
rate” as DPR, “average daily balance” as ADB, and “ANNUAL PERCENTAGE RATE”
as APR.
(a) Standard Interest RatesRate for "Purchases" and "Balance Transfers": The DPR for transactions posting as
Purchases and Balance Transfers is equal to 1/365th of its corresponding APR. Rate for
"Advances": The DPR and corresponding APR for transactions posting to the Account as
Advances is equal to 1/365th of its corresponding APR.
(b) Your Variable APRs are calculated by adding a margin to the Index. Your V ar i ab l e
DPR is equal to 1/365th of the corresponding APR. Your DPR and corresponding A P R
may increase or decrease from time to time accordin g to the movements up or dow n o f
the Index, which is the Prime Rate published in the "Money Rates" section of the
Midwest Edition of The Wall Street Journal on the last publication day before the date on
which the billing cycle closed (in other words, the "statement date"). We reserve the right
to choose a comparable new index if The Wall Street Journal ceases to publish a Pr i m e
Rate. The margin is the percentage we add to the Index to calculate the APR. The
current applied Index value for your Account is 3.25%. Any variable rate adjustment
based on a change to your margin will be effective as of the first day of the current billing
cycle, and will apply to all new Account balances and transactions subject to that variable
rate. Any variable rate adju stment based on a change to your Index will be effective as of
the first day of the current billing cycle, and will apply to all new and outstanding Account
balances and transactions subject to that variable rate. An increase or decrease to th e
Index or margin will apply to Purchase, Advance, and Bala nce Transfer balances and will
result in an increase or decrease in the INTEREST CHARGE on the Account, an
increase or decrease to your Minimum Payment, and an increase or decrea se to yo ur
New Balance.
Introductory and Promotional Rates: We may, at our option, offer you for a limited
time introductory or promotional interest rates for all or part of new Purchase, Advance,
or Balance Transfers posted to your Account. We will tell you in the Offer Materials the
introductory or promotional rate and the period of time during which that rate w i l l b e i n
effect and any conditions or requirements of the offer. Unless the Offer Materials state
otherwise, an introductory or promotional rate will remain in effect until the last day of the
billing cycle in which the introductory or promotional rate expires. Any introductory or
promotional rate that applies to new or outstanding Account bala nces will increase to the
standard rate that would otherwise apply, or, when appropriate under the term s o f th i s
Agreement, a Penalty Rate due to an Adjustment Event (as indicated above).
12. INTEREST CHARGE; Method of Computing Balance Subject to Interest Rate: We
calculate the periodic rate or interest portion of the INTEREST CHARGE by multip l yi ng
the applicable DPR by the ADB (including new transactions) of the Purchase, Adva nce
and Balance Transfer categories subject to interest, and then adding together the
resulting interest from each category. We determine the ADB separately for the
Purchases, Advances and Balance Transfer categories. To get the ADB in each
category, we add together the daily balances in those categories for the billing cycle and
divide the result by the number of days in the billing cycle. We determine the daily
balances each day by taking the beginning balance of those Account categories
(including any billed but unpaid interest, fees, credit insurance and other charges),
adding any new interest, fees, and charges, and subtracting any payments or credits
applied against your Account balances that day. We add a Purchase, Advance or
Balance Transfer to the appropriate balances for those categories on the later of the
transaction date or the first day of the statement period. Billed but unpaid interest on
Purchases, Advances and Bala nce Transfers is added to the appropriate bal a nce s fo r
those categories each month on the statement date. Billed but unpaid Advance
Transaction Fees are added to the Advance balance of your Account on the d ate th e y
are charged to your Account. Any billed but unpaid fees on Purchases, credit insurance
charges, and other charges are added to the Purchase balance of the Acco u nt o n th e
date they are charged to the Account. Billed but unpaid fees on Balance Transfe r s a re
added to the Balance Transfer balance of the Account on the date they are ch a r ge d to
the Account. In other words, bille d and unpaid interest, fees, and charges will be included

in the ADB of your Account that accrues interest and will reduce the amount of credit
available to you. Credit insurance charges are not included in the ADB calculation for
Purchases until the first day of the billing cycle following the date the credit insurance
premium is charged to the Account. Prior statement balances subject to an interest-fr ee
period that have been paid on or before the payment due date in the current billing cycle
are not included in the ADB calculation. As describ ed above, this Agreement pr ovi d e s
for the compounding of interest on your Account.
13. Paying Interest: There is no interest-free period for transactions that post to the
Account except as provided in any Offer Materials. Transactions are subject to interest
from the date they post to the Account until the date they are paid in full.
14. Advance Account Fees: You agree to pay the following Account fees and INTEREST
CHARGES:
(a) We may add an Advance Transaction Fee INTEREST CHARGE to the
Advance balance of the Account for each Advance you obtain during a billing cycle
in addition to the interest that accrues on the Advances. The Advance Transaction
Fee imposed will equal the greater of either a percentage of each Advance or th e
minimum dollar amount, subject to the maximum dollar amount.
15. Account Fees:
(a) We may add a Promotional Discount Transaction Fee INTEREST CHARGE for
each Promotional Discount you receive during the billing cycle, as outlined i n a ny
Offer Materials.
(b) Each year, the Account may be subject to your payment in advance of an
Annual Membership Fee which will compensate us for maintaining and servicing the
Account for the following year. This fee will be charged to the Purchase balance o f
your Account.
(c) We may add a Late Payment Fee to the Purchase balance of the Account if your
Minimum Payment is not received by the Payment Due Date shown on the monthly
Account statement.
(d) There is no Overlimit Fee on your Account.
(e) We may add a Returned Payment Fee to the Purchase bala nce of the Account
if any payment on the Account is not honored or if we must return it to you because
it cannot be processed. A check that is returned unpaid will be sent for colle ction.
(f) We will add a Duplicate Documentation Fee to the Purchase balance of the
Account for each copy of a monthly statement, sales slip, refund slip, or Advance
slip that you request. There will be no charge for documentation requests ma d e i n
connection with a billing error notice, if our investigation indicates a billing error
occurred.
(g) We may add a service charge to the Purchase balance of the Account if you
call us to make a payment on your Account and are assisted by a Cardmember
Service Representative to make the payment. You will be provided with
confirmation of the service charge before the payment transaction is authorized.
(h) We may add a Stop Payment Check Fee to the Purchase balance of your
Account if you request a stop payment on a Convenience Check. (See "Paying and
Stopping Payment on Convenience Checks" section above for more details.)
(i) We may add an Overdraft Fee INTEREST CHARGE to the Advance balance of
your Account, except where Offer Materials specify otherwise.
IMPORTANT INFORMATION ABOUT USING YOUR ACCOUNT
16. BalanceShield or Insurance Charges: Your purchase of BalanceShield debt
cancellation or credit life insurance and disability is optional. Whether or not you
purchase BalanceShield or credit insurance will not affect your application for cr e d it o r
the terms of any existing credit agreement you have with us. If you elect to purchase
BalanceShield or credit insurance and are eligible to participate, the monthly program fee
or premium (at the rate disclosed to you) will be added to the Purchase bala nce as of the
closing date of each billing cycle based upon the Account balance (including accrued
INTEREST CHARGES).The terms of your BalanceShield coverage will be summar i zed
in the BalanceShield Debt Cancellation Program Agreement, which will be pr o vi de d to
you upon enrollment. For credit insurance, the terms of your insurance coverage wil l b e
summarized in the Certificate of Insurance, which will be provided to you.
17. Credit Limit: The Account Credit Limit for your Account is the maximum amount of
credit available and that you may owe under the Account at any time. You may not
request or obtain additional Purchases, Advances or Balance Transfers once you ha ve
reached your Credit Limit. The initial Credit Limit is shown on your Card carrier an d w i l l
appear on your monthly Account statements. We reserve the right to review your
Account at any time and increase or decrease your Credit Limit. You may not i n cr ea se

your Credit Limit by carrying credit balances over the Credit Limit we make avai la b le to
you.
18. Payment: You must pay us in U.S. Dollars with checks or similar payment
instruments drawn on a financial institution located in the United States. We will also
accept payment in U.S. Dollars via the Internet or phone or previously established
automatic payment transaction. We may, at our option, choose to accept a payment
drawn on a foreign financial institution. However, you will be charged and agree to p a y
any collection fees required in connection with such a transaction. The date you m ai l a
payment is different than the date we receive that payment. For purposes of this
Agreement, the payment date is the day we receive your check or money order at the
address specified on your monthly Account statement or the day we receive your
electronic or phone payment. If you mail your payment without a payment coupon o r to
an incorrect address, it may result in a delayed credit to your Account, additional
INTEREST CHARGES, fees, and possible suspension of your Account.
19. Minimum Payment: Each month, you must pay at least the Minimum Payment and
any past due Minimum Payment(s) by the Payment Due Date shown on your monthly
Account statement. You may, at your option, pay more than the Minimum Payment or
pay the New Balance (as stated on your monthly Account statement) in full to reduce o r
avoid the INTEREST CHARGE for the Account. Your Minimum Payment will be
calculated as follows: first, we determine the “Base Minimum Payment,” which is the
greater of $50.00 or 1% of your New Balance not including items (1) and (2) below,
which, if not a whole dollar amount, will be rounded to the next highest dollar. To the
Base Minimum Payment, we may add one or more of the following items, as incurred on
your Account: (1) any late, annual and/or any other Account related fee, (2) the
INTEREST CHARGE, and (3) if your Account is over the Credit Limit, some or all of th e
balance amount over your Credit Limit. If the resulting Minimum Payment is greater than
$50.00, the total, if not a whole dollar amount, is then rounded to the next highest dol l a r
not to exceed your New Balance. Any Minimum Payment or additional amount yo u p ay
each month will not prepay any future Minimum Payments required, or change your
obligation to make at least a Minimum Payment by the Payment Due Date. Any
statement credit that results from a promotional offer or rewards redemption, if
applicable, will only be applied to the Account balance and not satisfy any portion of th e
Minimum Payment requirements for this Account.
20. Payment Application: If we cannot collect on your check or other payment item yo u
send us to pay on your Account, we may post as an Advance transaction an amount
equal to the credit previously given to you for such check or payment item and w e m a y
charge interest on this amount from the date your Account orig inally was credited for the
payment. After a payment has been made, we reserve the right to withhold available
credit in the amount of the payment for 7 business days. Any credit available before th e
payment is made will continue to be available for use during this time.
21. Skip Payment Option: We may, at our option, occasionally offer you an opportu ni ty
to skip your obligation to make the Minimum Payment due. You may not skip paym e n ts
unless we make this offer to you. If we offer you an opportunity to skip a payment m o r e
than once in a 12 month period, you will not be permitted to skip payments r eq u ir e d i n
consecutive months. You cannot accept a skip payment offer if your Account is
delinquent, or is in Default. When you take advantage of a skip payment offer, the
interest will continue to accrue on the entire unpaid balance of your Account.
22. Change of Address: Your monthly Account statements and notices about your
Account will be sent to the address you provided in your application or your response to
our Account solicitation. To change your address, you must call or write to us. We must
receive this information 21 days before the date a billing cycle closes to provide your
monthly Account statement at your new address. If you have an address change w i th in
45 days of the expiration date of your Card(s), please contact Cardmember Service with
your new address so your new Card(s) can be mailed to your new address. We may also
update your address in our records without a request from you if we receive an addr e ss
change notice from the U.S. Postal Service or if we receive updated address information
from our mail services vendor.
23. Authorized Users: You agree not to allow access to your Card, Account number,
Convenience Checks, or personal identification number (PIN) to anyone else to use your
Account, except by asking us to issue a card to grant Account access to another person.
If you allow access to your Card or Account information, you will be liable for any charges
made by that person, unless and except as expressly required by applicable l aw . Y o u
agree to be responsible for all Account transactions made by a Accountholder, or anyone
who you have authorized by (a) asking us to issue a Card to grant Account access to
another person; (b) lending your Card to or allowing Account access by another perso n;
or (c) any other way in which you would be legally considered to have allowed a n oth e r

person to use your Account or to be legally prevented from denying that you did so. B e
cautious when allowing another person to become an authorized user of your Accou n t;
once you allow authority to any authorized user you cannot limit that authority unless the
Account is closed to future transactions. You, as a primary or joint Accountholder m u st
call or write us with any request to cancel and remove a person’s authority. We w i l l n o t
provide any Account information to anyone other than you and any Authorized Users.
Authorized Users have no right to make any Account changes or inquirie s.
24. Lost or Stolen Card or Other Information: You must notify us immediately by
telephone or in writing if your Card, Convenience Checks, or PIN is lost or stolen or there
is possible unauthorized use of your Card, Account, or PIN. You will not be liable for
unauthorized use of your Account. If this happens, we will ask you and all other persons
given Account access to return all Cards and unused Convenience Checks to us. In
addition, we have the right to close your Account and open a new Account. If we d o so ,
new Cards will be issued. If requested, we may issue a new PIN and new Convenie n ce
Checks for your new Account.
25. Using Your Card for International Transactions: You may use your Card for retail
Purchases at foreign merchants and for cash withdrawals from foreign ATMs th a t b ea r
either the PLUS System or the Visa logo. Some merchant and ATM transactions, even if
you and/or the merchant or ATM are located in the United States, are considered foreign
transactions under the applicable Visa rules, in which case we will add the Foreign
Transaction Fee INTEREST CHARGE described in this section to those transactions.
We do not control how these merchants, ATMs, and transactions are classified for this
purpose. The exchange rate in effect when the transaction is processed may differ fro m
the rate in effect on the date of the transaction or the date of the posting of the
transaction to your Account.
If you use your Card at a merchant or an ATM that bears the Visa logo (and no PLUS
System logo), the transaction will be processed through the Visa system and will be
converted to U.S. Dollars according to the applicable rules established by Visa from time
to time. Currently, the currency conversion rate used by Visa to determine the fo r ei g n
currency transaction amount in U.S. Dollars is determined by multiplying the amo un t o f
the foreign currency transaction times (a) a rate selected by Visa from the range of rates
available in wholesale currency markets for the applicable central processing date, which
rate may vary from the rate Visa itself receives, or (b) the government-mandated rate i n
effect for the applicable central processing date. If your foreign transaction is in fo r e ig n
currency prior to being processed by Visa, we will add a Foreign Transaction Fee
INTEREST CHARGE of 3.00% of the Purchase transaction or 3.00% of the ATM
transaction. If your foreign transaction is in or converted to U.S. Dollars prior to being
processed by Visa, we will add a Foreign Transaction Fee INTEREST CHARGE of
3.00% of the Purchase transaction or 3.00% of the ATM transaction. If you use your
Card at an ATM that bears only the PLUS System logo (and no Visa logo), the
transaction will be processed through the PLUS System and will be converted into U .S .
Dollars at the exchange rate established, from time to time, by the operator of that ATM.
To the converted transaction we will not add a Foreign Transaction Fee INTEREST
CHARGE.
If you use your Card at an ATM that bears both the Visa and PLUS System logos, the
ATM operator will determine whether to send your transaction over the Visa or PLUS
System network using such network’s respective currency conversion rule s then in effect
(as explained above).
YOUR LEGAL RESPONSIBILITY IN THIS AGREEMENT
26. Responsibility to Pay: You agree to pay us for all Purchases, Advances, Balance
Transfers, INTEREST CHARGES, Account Fees and charges, any other transaction
charges as provided in this Agreement and, to the extent permitted under applicable law,
attorneys fees and collection costs we incur enforcing this Agreement again st you. Th i s
is the case even if your Account is only used by one of you, or is used by someone
authorized by only one of you. If there is more than one Accountholder, each of you is
responsible, together and separately, for the full amount owed on your Acco un t. Y o u r
obligation to pay the Account balance continues even though an agreement, divorce
decree, court judgment, or other document to which we are not a party may direct
another person responsible to pay the Account.
27. Intent to Repay: Every time you use your Account, you represent to us that you
intend to and have the ability to repay your Account obligations. We rely on this
representation every time you use your Account.
28. Settling a Disputed Balance; Payment in Full: If you want to settle a disagreement
with us about any amount you owe by sending a check on which you have written

“Payment in Full” or similar language, you must send us a written explanation of the
disagreement or dispute and any such check to Cardmember Service. (See Your Billing
Rights section below for complete details.) This address is different than the address you
use to make Account payments. Writing “Payment in Full” or similar language on the
check will not be enough to resolve the dispute. If we collect a check or any payment
instrument marked “Payment in Full” that you sent to an address other than the one
provided in this section (such as the address at which you normally make payments), we
will not have waived our right to collect any remaining amount you owe us under the
terms of your Account.
29. Default: You and your Account will be in Default if:
(a) we do not receive the Minimum Payment by the Payment Due Date discl o se d
on the monthly Account statement;
(b) you violate any other provision of this Agreement;
(c) you die without a surviving joint Accountholder;
(d) you become insolvent, assign any property to your creditors, or go into
bankruptcy or receivership;
(e) you have made false statements on your Account application or in the
maintenance of your Account;
(f) we have any reason to believe that your Account is in danger of, or is being
used for fraud;
(g) you are a married community property state resident and you or we recei ve a
written termination notice of this Agreement from your spouse;
(h) your Account becomes inactive;
(i) anything happens that we believe in good faith materia lly increases the risk that
you will not live up to your payment and other obligations under this Agreement; or
(j) this is a joint Account and one of you notifies us that he or she wants the
Account closed or will no longer be liable on the Account.
You and your Account will also be in Default if you go over your Credit Limit.
30. Illegal Purchases: You agree that you will not use or permit an authorized user to
use the Card or Account for any unlawful purpose, such as funding any account th a t i s
set up to facilitate online gamblin g.
OUR LEGAL RIGHT TO CHANGE OR CANCEL THIS AGREEMENT
31. Ownership of this Account: Your Card and any other Account access devices that we
supply to you are our property and must be immediately returned to us or our designated
agent or otherwise destroyed or surrendered as we instruct.
32. Changes to your Account: Account and Agreement terms are not guaranteed for any
period of time; we may change the terms of your Agreement, including APRs and fees, in
accordance with applicable law and the terms of your Agreement. Your transactional
experience with us may also cause a change, including an increase in the margin that i s
added to the Index, an increase in fees, or a decrease in the Credit Limit. Factors
considered in determining the increased rate or Credit Limit decrease may include yo u r
general credit profile, existence, seriousness and timing of the defaults under any
agreement that you have with us, and other indications of the Account usage and
performance. We will give you notice of any such change in the manner required by law.
Revised Account terms apply as of the effective date communicated in our notice to yo u
unless the notice provides you with the right to opt out, and you do opt out, before the
effective date.
33. Cancellation of Your Account: We may cancel your Account or suspend your ab i l ity
to obtain Account credit immedia tely, without notice, if your Account is in Default. Even if
you are not in Default, we may cancel your Account by providing notice to you. You ma y
cancel your Account by notifying us by telephone or in writing. If this is a joint Accou n t,
we will honor a request by either of you to cancel the Account. After the Account is
cancelled, you will not be able to obtain additional Account credit, except that, (a) the
Account may continue to receive recurring charges for items and services until you
contact and cancel delivery with the company providin g the item or service, or (b) und e r
certain circumstances if you use your Account for a transaction, the transaction m a y b e
posted to your Account. After your Account is cancelled, all amounts outstanding on
your Account will be due and payable without notice or demand from us. You must cut all
Cards and Convenience Checks in half and return them to us. If you do not pay the
amount you owe under this Agreement, you will be liable for our collection costs including
our reasonable attorney fees and expenses of legal actions, to the extent permi tte d b y
applicable law.
34. Our Rights if You Are in Default: If you are in Default, we will give you notice of your
right to cure the Default as may be required by law. If you do not cure the Default wi th i n
the time stated in the notice, we may decla re the Account balance due and payable. You

remain responsible for all amounts charged to your Account both before and after receipt
of such notice. We may also use any other legal right it has. Except where prohibited we
may charge any amount due against any of your deposit accounts that you have with we
or its affiliates except for any balance resulting from use of your Bank credit card. If yo u
Default by exceeding your credit limit, the excess may be treated as an Advance;
however, it must be repaid in full with your next regular payment unless other
arrangements are made with we at the time.
35. Assignment of Your Account to Another Creditor: We may assign, sell or transfer
your Account and amounts owed by you to another creditor at any time. If we do, this
Agreement will still be in effect unless and until amended, and any references m ad e i n
this Agreement to “we”, “us”, or “our” will refer to the creditor to which we assigned, so l d
or transferred your Account or amounts owed under your Account. You may not delegate
your obligations and responsibilities to us to any third party without our express w r i tte n
consent.
OUR LEGAL RIGHTS AND OBLIGATIONS
36. Collecting Credit Information about You: You authorize us to make any credit,
employment and investigative inquiries we feel are appropriate related to giving you
credit or collecting amounts owed on your Account. You agree that a consumer credit
report may be requested periodically from one or more consumer reporting agencies
(“Credit Bureaus”) and used in connection with your application and any update, renewal
or extension of credit. We will provide information about you, your Account or your credi t
history to Credit Bureaus and others who may properly receive that information.
37. Credit Bureau Disputes: If you believe we inaccurately reported credit history
information about you or your Account to a Credit Bureau, write to us at Consumer
Recovery Department, Attn.: CBR Disputes, P.O. Box 108, St. Louis, MO 63166-9801.
38. Privacy Pledge and Disclosure of Account Information: A copy of our Privacy Pledge
was included with your original Agreement. We also keep copies of our Privacy Pledge in
financial institution offices and post it on our web site. Our Privacy Pledge describes how
we collect, protect and use confidential financial and other information about you and the
circumstances in which we might share information about you with members of our
corporate family and with unaffiliated third parties. Our Privacy Pledge also tells you how
you can (a) limit the ways we share certain kinds of information about you and (b)
request corrections to the information we maintain about you.
39. Refusal to Honor Transactions: We and our agents are not responsible if anyone
refuses to honor your Card or a Convenience Check, or if authorization for a par ti cu l ar
transaction is not given. Although you may have credit available under your Account, w e
may be unable to authorize credit for a particular transaction. The number of transactions
you make in one day may be limited, and the limit per day may vary. These restri cti on s
are for security reasons and as a result we cannot explain the details of how this syste m
works. If your Account is over the Credit Limit or delinquent, authorization of credit for
transactions may be declined. We are not responsible for anything purchased with yo ur
Card or a Convenience Check, except as expressly required by applicable law (see Your
Billing Rights section below for more details). You must return goods you purchased with
the Card or Account to the merchant and not to us.
40. Third Party Offers: From time to time, third parties may provide you with benefits not
related to the extension of Account credit. We are not liable for these features, ser vi ces
and enhancements, as they are the sole responsibility of the third party provider. We
and/or a third party may add, change or delete entirely these benefits without n o ti ce o r
liability to you, to the extent permitted by applicable law. You agree to hold us harml e ss
from any claims, actions or damages resulting from your use of any of these features,
services or enhancements, where permitted by applicable law.
41. Monitoring and Recording Communications: You understand and agree that we, and
anyone acting on our behalf, may monitor and/or record any communications b etw e e n
you, or anyone acting on your behalf, and us, or anyone acting on our behalf, for qual i ty
control and other purposes. You also understand and agree that this monitoring or
recording may be done without any further notice to you or anyone acting on your behalf.
The communications that may be monitored or recorded include telephone calls, cellular
or mobile phone calls, and any other communications in any form.
42. Severability: If a court of competent jurisdiction finds any part of this Agreement
illegal or unenforceable, the remaining portions of the Agreement will remain in effect a s
written after any such illegal or unenforceable portion is amended in conforman ce w i th
applicable law or, if necessary, voided.

43. Entire Agreement: This version of the web Agreement replaces any previous
versions of the web Agreement. The Agreement, as modified by any change in terms we
may deliver from time to time in accordance with applicable law, constitutes the entire
agreement between you and us, and supersedes any prior negotiation, agr ee m en t, o r
understanding between you and us concerning the subject matter of the Agreement.
44. Waiver: We do not give up our rights under the Agreement or applicable l aw w h e n
we fail to exercise or delay exercising those rights. Our failure or delay to exercise any
right or remedy we have against you does not mean that we waive that right.
45. Arbitration Provision:
(a) You agree that either you or we can choose to have binding arbitration resolve
any claim, dispute or controversy between you and us that arises from or relates
to this Agreement or the Account and credit issued thereunder (individually and
collectively, a "Claim"). This does not apply to any Claim in which the relief
sought is within the jurisdictional limits of, and is filed in, a small claims court. If
arbitration is chosen by any party, the following will apply:
(1) NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE A CLAIM IN
COURT OR TO HAVE A JURY TRIAL ON A CLAIM, OR TO ENGAGE IN PREARBITRATION DISCOVERY, EXCEPT AS PROVIDED FOR IN THE
APPLICABLE ARBITRATION RULES.
(2) Arbitration will only decide our or your Claim, and you may not
consolidate or join the claims of other persons who may have similar claims.
YOU WILL NOT HAVE THE RIGHT TO PARTICIPATE AS A REPRESENTATIVE
OR MEMBER OF ANY CLASS OF CLAIMANTS, OR AS A PRIVATE
ATTORNEY GENERAL, PERTAINING TO ANY CLAIM SUBJECT TO
ARBITRATION.
(3) The arbitration will be performed in accordance with this Arbitration
Provision and the rules of the chosen arbitrator in effect when the Claim is
filed.
(4) The arbitrator’s decision will generally be final and binding, except for
the limited right of appeal provided by the Federal Arbitration Act.
(5) Other rights that you would have if you went to court might also not be
available in arbitration.
(b) The party commencing the arbitration may select to use either JAMS or the
American Arbitration Association ("AAA") (or, if neither of these arbitration
organizations will serve, then a comparable substitute arbitration organization
agreed upon by the parties or, if the parties cannot agree, chosen by a court of
competent jurisdiction). If JAMS is selected, the arbitration will be handled
according to its Streamlined Arbitration Rules unless the Claim is for $250,000 or
more, in which case its Comprehensive Arbitration Rules shall apply. If the AAA is
selected, the arbitration will be handled according to its Commercial Arbitration
Rules. You may obtain rules and forms for JAMS by contacting JAMS at 1-800352-5267 or www.jamsadr.com and for the AAA by contacting the AAA at 1-800778-7879 or www.adr.org. Any arbitration hearing that you attend will take place in
the federal judicial district where you reside. At your request, we will advance
your filing and hearing fees for any Claim you may file against us. If you prevail on
your Claim, we will pay your arbitration costs and fees, other than attorney, expert
and witness fees and expenses. We will also pay any fees or expenses that
applicable law requires us to pay. The arbitrator shall apply applicable substantive
law consistent with the Federal Arbitration Act, 9 U.S.C. §§ 1 through 16, including
but not limited to applicable statutes of limitation, and shall honor claims of
privilege recognized at law. Judgment upon the award rendered by the arbitrator
may be entered in any court having jurisdiction.
(c) This Arbitration Provision shall survive repayment of your extension of credit
and termination of your Account. This Arbitration Provision shall be governed by
federal law, including the Federal Arbitration Act, and by Ohio law, without regard
to its internal conflict of law principles, to the extent such state law does not
conflict with federal law or this Arbitration Provision. This Arbitration Provision
shall not apply to a party who is a covered borrower under the Military Lending
Act. Notwithstanding any language of this Agreement to the contrary, should any
portion of this Arbitration Provision be held invalid or unenforceable by a court or
other body of competent jurisdiction, this entire Arbitration Provision shall be
automatically terminated and all other provisions of this Agreement shall remain in
full force and effect.
Federal law provides important protections to members of the Armed Forces a nd th ei r
dependents relating to extensions of consumer credit. In general, the cost of co n su m er
credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include, as applicable to the cred i t
transaction or account: the costs associated with credit insurance premiums; fees for

ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a credi t ca r d
account). For a verbal transcript of this disclosure, please call 1-877-292-1682.
YOUR BILLING RIGHTS
Keep this document for future use. This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement:
If you think there is an error on your statement, call or write to us.
In your letter or call, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe w h at
you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
What Will Happen After We Receive Your Letter or Call:
When we receive your letter or call, we must do two things:
1.
Within 30 days of receiving your letter or call, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2.
Within 90 days of receiving your letter or call, we must either correct the error or
explain to you why we believe the bill is correct. While we investigate whether o r
not there has been an error:
•
We cannot try to collect the amount in question, or report you as delinque nt
on that amount.
•
The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are respo nsi b l e
for the remainder of your balance.
•
We can apply any unpaid amount against your Credit limit.
After We Finish Our Investigation, One of Two Things Will Happen:
•
If we made a mistake, you will not have to pay the amount in question or any
interest or other fees related to that amount.
•
If we do not believe there was a mistake, you will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe. If you receive our
explanation but still believe your bill is wrong, you must write to us within 10 da ys
telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We mu st te l l
you the name of anyone to whom we reported you as delinquent, and we must l e t
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases:
If you are dissatisfied with the goods or services that you have purchased with your Card,
and you have tried in good faith to correct the problem with the merchant, you may have
the right not to pay the remain ing amount due on the purchase. To use this right, a l l of
the following must be true:
1.
The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more tha n $ 50 .
(Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods
or services.)
2.
You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card Account do
not qualify.
3.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing.
While we investigate, the same rule s apply to the disputed amount as discussed above .
After we finish our investigation, we will tell you our decision. At that poin t, if we think you
owe an amount and you do not pay, we may report you as delinquent.
SPECIAL RULES FOR CREDIT CARD PURCHASES DO NOT APPLY TO
PURCHASES MADE WITH CONVENIENCE CHECKS OR BALANCE TRANSFER
CHECKS.
06_USB_LINE_OF_CREDIT

